                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL                       11
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
                                                                                                        /I




11   Case Number:I04020006                                                                      Page 1 of 1



           The National Science Foundation (NSF), Office of Inspector General (NSFIOIG) received an
                                          '
           allegation regarding a grantee that may have received duplicative SBIR funding from NSF and
           other federal agencies.

           NSFIOIG compared the NSF Phase I and NSF Phase I1 awards with the awards from the other
           agencies and determined that the technology appeared to be similar. However the awarded'
           applied the technology to solve sufficiently different problems.

           The Program ~ a n a ~ eadvised
                                      ?      that in her opinion the grantee had not received duplicative
           funding. According to the Program Manager, it is not uncommon for Principal Investigators
           (PIS) to build an area of expertise on a certain technology without duplication and to apply it to
           solve different problems.

           This case is recommended for closure due the lack of evidence of duplicative funding.
           Accordingly, this case is closed.
                                                                                                             I




                                                                                                             I




                                                                                                             I,




           I
               Footnote redacted
               Footnote redacted                                                                                 I




 NSF OIG Form 2 ( I 1/02)                                                                                        I1
